Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Jun
  ne 27, 2013

Mic
  chael D. Ska
             aggs, LP 6A--C

RE
 EQUEST FOR MANAGE EMENT DECCISION – EV
                                      VALUATION 2012-14623
                                                         3 – WATTS BAR
NU
 UCLEAR UNIT 2 QUALIT
                    TY ASSURA
                            ANCE PROG GRAM



As a result of delays
               d       and overruns
                           o          on the
                                         t Tennesssee Valley A    Authority (TVVA) Watts Ba ar
Nuclear Unit 2 (WBN U2) construction
                            c             project, que
                                                     estions have e been raised d about the
qua
  ality of the work
               w     perform
                           med. Nuclearr Constructio on (NC) Qua   ality Assurannce (QA) plaays a
key
  y role in ensuring that woork complete ed meets higgh-quality sttandards. The objective   e of
ourr review wass to determinne if the NC QA program  m is effective
                                                                  e in its oversight of the
WBBN U2 consttruction proje ect.

Wee found NC QA  Q has gene   erally been effective
                                           e         in itts oversight of the consttruction projeect;
howwever, a bre eakdown in the QA progrram resulted     d in a lack off oversight inn one area.
Muultiple reviewws, both interrnal and exteernal, were cconducted re  elated to thee QA program  m.
Witth the excep ption of the breakdown
                             b            in
                                           n QA discusssed below, n   no significannt issues were
identified. In addition, we reviewed
                              r          do
                                          ocumentation  n that showe ed NC QA co    onducted
ove
  ersight activiities and Bec chtel performmed QA acti vities. As isssues were identified,
Pro
  oblem Evaluation Reportts (PERs) were   w     generate  ed to addresss those issu ues. A
bre
  eakdown in the QA progrram related to the comm       mercial-grade  e dedication n1 program w was
identified by thee Nuclear Regulatory Co    ommission ((NRC). Spe    ecifically, the
                                                                                   ere was no
ove
  ersight of the e commercia al-grade ded  dication proggram by QA since 2008. In response,
TVA A conducted  d an evaluattion to see if problems exxisted in oth her areas. T  The evaluatio on
fou
  und a few are  eas that requuired minor adjustmentss, and those adjustmentss were made         e.
Furrthermore, TVA
                T     assemb bled an indep pendent, tecchnical team to review co    ommercial-g grade
deddication packages, and as  a of May 20   013, no signnificant issue
                                                                     es had been identified. IIn
adddition, while the turnoverr of one systtem has occcurred, a pro   ocess for tran nsitioning the
autthority for the
                 e execution of the QA prrogram from   m Bechtel QA  A to NC QA has not bee     en
imp
  plemented, which
                 w      could limit the effe
                                           ectiveness o of the NC QA A’s oversightt efforts. The
pro
  ocess for tran nsition of au
                             uthority from Bechtel QA  A to NC QA w  will provide eevidence tha at the
con
  nstruction ph  hase QA req quirements in n the Nuclea ar Quality Asssurance Pla   an have bee en
meet and also help to preve  ent any steps s or reviews from being missed.




1
    In 1995, regula
                  ators enacted rules requiring that
                                                  t    parts obta ined from non--nuclear certifie
                                                                                                ed vendors must
    receive special and strict indu
                                  ustry testing to be performed and documentted by operatorrs.
Michael D. Skaggs
Page 2
June 27, 2013



We recommend the Senior Vice President, NC, make implementing the process for the
transfer of authority for the execution of the QA program from Bechtel QA to NC QA a
priority.

The Senior Vice President, NC, agreed with our findings and recommendation. He also
provided some clarifying comments for our consideration, which we reviewed and
incorporated as appropriate.

BACKGROUND

The 10 CFR 502 Appendix B specifies 18 Quality Assurance Criteria for Nuclear Power
Plants and Fuel Reprocessing Plants. As used in this appendix, "quality assurance"
comprises all those planned and systematic actions necessary to provide adequate
confidence that a structure, system, or component will perform satisfactorily in service.
QA includes quality control, which comprises those quality assurance actions that provide
a means to control the quality of the material, structure, component, or system to
predetermined requirements.

The execution and accountability for the WBN U2 construction completion, construction
phase tests and inspections, and related QA activities have been delegated to Bechtel
and is implemented through the project-specific, TVA approved Bechtel Nuclear Quality
Assurance Manual. Procedures and instructions that control engineering, procurement,
construction, and QA/quality control activities were developed by Bechtel prior to
commencement of those activities and were reviewed and approved by TVA to ensure
inclusion of QA program requirements. TVA retains and exercises the overall
responsibility for the establishment and execution of an effective QA program for
completing WBN U2.

OBJECTIVE, SCOPE, AND METHODOLOGY

As a result of delays and overruns on the WBN U2 project, questions were raised about
the quality of the work performed. QA plays a key role in ensuring that work completed
meets high-quality standards. The objective of our review was to determine if the NC QA
program is effective in its oversight of the WBN U2 construction project. This review
included the QA activities for the WBN U2 construction project from January 2011 through
June 2012. To achieve our objective we:

    Conducted interviews and/or reviewed provided documentation to determine:
     -   Oversight activities performed by NC QA of Bechtel’s QA program.
     -   Assessments of the QA program that have been completed.
     -   Actions taken in response to major issues with the WBN U2 construction project.
     -   Actions taken based on Bechtel QA findings. 

This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

2
    Domestic Licensing of Production and Utilization Facilities.
Michael D. Skaggs
Page 3
June 27, 2013



FINDINGS

We found NC QA has generally been effective in its oversight role of the construction
project; however, a breakdown in the QA program resulted in a lack of oversight in one
area. A breakdown in the QA program related to commercial-grade dedication was
identified by the NRC. Specifically, there was no oversight of the commercial-grade
dedication program by QA since 2008. In addition, while the turnover of one system has
occurred, a process for transitioning the authority for the execution of the QA program
from Bechtel QA to NC QA has not been implemented, which could limit the effectiveness
of the NC QA’s oversight efforts.

NC QA Has Generally Been Effective in Its Oversight
We found NC QA has generally been effective in its oversight role of the construction
project. Multiple reviews, both internal and external, were conducted related to the QA
program. With the exception of the breakdown in QA discussed below, no significant
issues were identified. In addition, we reviewed documentation that showed NC QA
conducted oversight activities and Bechtel performed QA activities. As issues were
identified, PERs were generated to address those issues.

The effectiveness of the QA program was assessed through both internal and external
audits and assessments. During both the 2011 and 2012 Construction Safety Review
Board’s reviews of various programs at WBN U2, it was concluded quality programs and
processes have been established for the nuclear construction projects and are being
adequately implemented. Also, in May 2012, the NRC completed an inspection of
construction activities at WBN U2. The inspection examined activities conducted under
the construction permit. The report covered a 7-week period of inspections in areas that
included quality assurance. The report noted that inspectors continued to review PERs as
a part of the applicant’s corrective action program to verify that issues being identified
under the corrective action program were being properly identified, addressed, and
resolved. The report concluded the issues identified in the PERs were properly identified,
addressed, and resolved. We also reviewed audits from 2011 conducted by TVA
personnel external to WBN U2 and 2012 conducted by Southern Company. Both
concluded that the WBN U2 QA department is effectively meeting both regulatory and
TVA QA program requirements.

We also reviewed the reports for the audits NC QA performed of Bechtel’s QA program.
We found NC QA performed oversight reviews of Bechtel QA work and identified issues.
PERs were generated to address those issues. In addition, NC QA generated a quarterly
oversight report. This report summarized the QA oversight work NC QA has completed
for the quarter. At the beginning of 2011, there were concerns that oversight activities had
declined; however, in 2012, this issue was not identified in the quarterly oversight reports.
Michael D. Skaggs
Page 4
June 27, 2013



Breakdown in QA
In 2013, TVA was cited with three violations stemming from a 2011 NRC evaluation at
WBN U2 related to the commercial-grade dedication program. One of the violations was
related to the failure to report a significant breakdown in NC QA. A contributing factor to
the breakdown was the cancellation of Bechtel’s process to follow TVA’s. This would
allow packages previously prepared using TVA’s process to be accepted without
additional work. Canceling the process removed the commercial-grade dedication
program from the scope of WBN U2 QA audits and assessments. This breakdown
resulted in no audits, surveillances, or assessments of the commercial-grade dedication
program being performed for WBN U2 since 2008. A PER was initiated and resulting
actions included a systematic evaluation of oversight performed and scheduled to
determine if other activities needed to be included in the oversight program. The
evaluation determined there were a few areas that required minor adjustments. According
to the PER, adjustments have been made to address the areas. In addition, TVA
assembled an independent team of technical personnel to perform a review of the
commercial-grade dedication packages used by the WBN U2 project. As of May 2013, no
significant issues had been identified.

A Process Has Not Been Implemented for the Transition of Authority
A process for the transition of authority for the execution of the QA program from Bechtel
QA to NC QA and from NC QA to Nuclear Power Group QA has not been implemented.
According to the Program Manager, WBN U2 QA, NC QA has developed a strategy,
which once approved, will be used to develop processes for both the transition of authority
for the execution of the QA program from Bechtel QA to NC QA and from NC QA to
Nuclear Power Group QA. According to a draft of the strategy document, the project has
advanced to a level where the process for transition of authority for the execution of the
QA program from Bechtel QA to NC QA needs to be established. The process for
transition of authority from Bechtel QA to NC QA will provide evidence that the
construction phase QA requirements in the Nuclear Quality Assurance Plan have been
met and also help to prevent any steps or reviews from being missed. Our review found
NC QA has taken over the QA function from Bechtel for one safety-related system;
however, they have not implemented a process for transition of authority for the execution
of the QA program. Not having a process for transitioning authority for the execution of
the QA program could limit the effectiveness of NC QA’s oversight efforts.

RECOMMENDATION

We recommend the Senior Vice President, NC, make implementing the process for the
transfer of authority for the execution of the QA program from Bechtel QA to NC QA a
priority.

TVA Management’s Comments – The Senior Vice President, NC, agreed with our
findings and recommendation. He also provided clarifying comments for our
consideration, which we reviewed and incorporated as appropriate.

                       -      -       -      -       -      -
Mic
  chael D. Ska
             aggs
Pag
  ge 5
Jun
  ne 27, 2013



Thiis report is fo
                 or your revie
                             ew and inform
                                         mation. Plea ase advise uus of your mmanagement
deccision within 60 days from the date ofo this reportt. Informatio
                                                                  on contained d in this repo
                                                                                            ort
maay be subjectt to public diisclosure. Please
                                        P       advisee us of any ssensitive info
                                                                                ormation thaat you
rec
  commend be    e withheld.

If you
   y have que  estions or wiish to discus
                                        ss our obserrvations, pleaase contact me at
(8665) 633-74500 or Greg Sttinson, Direc                          5) 633-7367. We apprecciate
                                        ctor, Evaluat ions, at (865
the            nd cooperatiion received from your sstaff during the evaluatio
   e courtesy an                                                            on.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

HR
 RK:FAJ
cc: Peyton T. Hairston, Jrr., WT 7B-K
    Joseph J. Hoagland, WTW 7C-K
    William D. Johnson, WT
                         W 7B-K
    Richard W.
             W Moore, ET T 4C-K
    Emily J. Reynolds,
             R         OCCP 6C-NST
    Robert B. Wells, WT 9B-K
                         9
    Andrea L. Williams, WT
                        W 9B-K
    OIG File No:
             N 2012-146   623
